No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

TELLY KAVANTZAS,
Petitioner,
v.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Telly Kavantzas, pursuant to SuP.CT. R: 39.1, respectfully moves
for leave to file the accompanying petition for writ of certiorari in the Supreme Court
of the United States without payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE
39.1 and ยง 8006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ยง 1746.

MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER

Fort Lauderdale, Florida By: s/Janice L. Bergmann
July 10, 2020 Janice L. Bergmann

Assistant Federal Public Defender
One East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301
Telephone No. (954) 356-7436

 

 
